     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




August 9, 2010

Report Number: A-07-09-03136

Mr. Craig Bodway
Vice President, Compliance and Regulatory Affairs
Sterling Life Insurance Company
2219 Rimland Drive
Bellingham, WA 98226

Dear Mr. Bodway:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Sterling Life Insurance Company’s Internal
Controls to Guard Against Fraud, Waste and Abuse for The Medicare Part D Program. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Dan Bittner, Audit Manager, at (515) 284-4674, extension 23, or
through email at Dan.Bittner@oig.hhs.gov. Please refer to report number A-07-09-03136 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Craig Bodway

Direct Reply to HHS Action Official:

Mr. Timothy B. Hill
Deputy Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF STERLING LIFE INSURANCE
 COMPANY’S INTERNAL CONTROLS TO
 GUARD AGAINST FRAUD, WASTE AND
 ABUSE FOR THE MEDICARE PART D
            PROGRAM




                         Daniel R. Levinson
                          Inspector General

                            August 2010
                           A-07-09-03136
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

BACKGROUND

The Medicare Part D Program

Title I of the Medicare Prescription Drug, Improvement, and the Modernization Act of 2003
(MMA) amended Title XVIII of the Social Security Act by establishing the Medicare Part D
prescription drug benefit. Under the Part D program, which began January 1, 2006, individuals
entitled to benefits under Part A or enrolled in Part B may obtain drug coverage. The Centers for
Medicare & Medicaid Services (CMS), which administers Medicare, contracts with private
prescription drug plans (Part D sponsors), which must apply to CMS to participate in the Part D
program, to offer prescription drug benefits to eligible individuals.

Centers for Medicare & Medicaid Services Oversight Responsibilities

CMS is responsible for safeguarding the Part D program from fraud, waste and abuse (FWA),
including ensuring Part D sponsors’ compliance with applicable requirements. CMS contracts
with Medicare Drug Integrity Contractors (MEDIC) to perform many Part D oversight activities.
The MEDICs’ responsibilities include analyzing claims and other data, investigating complaints,
and reviewing the FWA components of Part D sponsors’ compliance plans.

Part D Sponsors’ Responsibilities

The MMA includes a requirement that all Part D sponsors have a program to control FWA.
Accordingly, CMS set forth regulations at 42 CFR § 423.504(b)(4)(vi) that require Part D
sponsors to have a compliance plan. The compliance plan, which must be approved by CMS,
articulates policies, processes, and procedures for Part D sponsors to detect, correct, and prevent
FWA. Implementing a compliance plan includes conducting the activities described in the plan
and developing comprehensive written procedures for activities referenced in the plan. The
sponsors’ compliance plans must contain the required components as set forth in these
regulations; chapter 9 of CMS’s Prescription Drug Benefit Manual contains further
interpretation of the required components.

Sterling Life Insurance Company

Sterling Life Insurance Company (Sterling) is headquartered in Bellingham, Washington, and is
a subsidiary of Munich-American Holding Corporation. Sterling became a Part D sponsor in
2006 and, during the period of this review, offered Part D drug plans in all 50 States and the
District of Columbia. Sterling contracts with Express Scripts, Inc. (ESI), to provide pharmacy
benefits management services including pharmacy auditing, claims processing, and formulary
management.




                                               i
OBJECTIVE

The objective of our review was to determine whether Sterling had adequate internal controls in
place to detect, correct and prevent FWA in the Part D program during the period of
July 1, 2007, through June 30, 2009.

SUMMARY OF FINDINGS

Sterling had several internal control weaknesses that compromised its ability to detect, correct
and prevent FWA in the Part D program during the period of July 1, 2007, through
June 30, 2009. Specifically:

  •   Sterling did not ensure that its employees completed compliance training pursuant to
      Federal regulations.

  •   Sterling did not require its contracted entities to provide compliance training to their
      employees as required by Federal regulations.

  •   Sterling did not perform monitoring activities of its contracted entities as required by
      Federal regulations.

  •   Sterling did not have a compliance committee pursuant to Federal regulations.

Sterling’s Compliance Plan and its policies and procedures, if properly implemented, would
enable Sterling to detect, correct and prevent FWA pursuant to Federal requirements. However,
Sterling did not follow the provisions of its Compliance Plan and the policies and procedures
pertaining to the compliance training of its employees and contracted entities, the monitoring of
its contracted entities, and the designation of a compliance committee. As a result of these
internal control weaknesses, Sterling compromised its ability to detect, correct and prevent FWA
in the Part D program, and increased the risk that improper payments may have occurred.

RECOMMENDATIONS

We recommend that Sterling strengthen internal controls by following the provisions of its
Compliance Plan by:

  •   establishing policies and procedures to maintain documentation to support that its
      employees completed compliance training pursuant to Federal regulations,

  •   revising its contracts to require that contracted entities provide compliance training to their
      employees as required by Federal regulations,

  •   adhering to its policies and procedures to monitor the activities of its contracted entities as
      required by Federal regulations, and



                                                  ii
  •   adhering to its policies and procedures to establish a formal compliance committee
      pursuant to Federal regulations.

STERLING LIFE INSURANCE COMPANY COMMENTS

In written comments on our draft report, Sterling concurred with our recommendations and
described corrective actions that it had implemented or planned to implement.

Sterling’s comments are included in their entirety as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Medicare Part D Program .............................................................................1
              Centers for Medicare & Medicaid Services Oversight
                   Responsibilities ...........................................................................................1
              Part D Sponsors’ Responsibilities........................................................................1
              Sterling Life Insurance Company ........................................................................1
              Previous Office of Inspector General Work ........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          COMPLIANCE TRAINING FOR EMPLOYEES ..........................................................4

          COMPLIANCE TRAINING FOR CONTRACTED ENTITIES ....................................4

          MONITORING OF CONTRACTED ENTITIES ...........................................................5

          FORMATION OF A COMPLIANCE COMMITTEE ....................................................5

          RECOMMENDATIONS .................................................................................................6

          STERLING LIFE INSURANCE COMPANY COMMENTS ........................................6

APPENDIX

          STERLING LIFE INSURANCE COMPANY COMMENTS
                                       INTRODUCTION

BACKGROUND

The Medicare Part D Program

Title I of the Medicare Prescription Drug, Improvement, and the Modernization Act of 2003
(MMA) amended Title XVIII of the Social Security Act by establishing the Medicare Part D
prescription drug benefit. Under the Part D program, which began January 1, 2006, individuals
entitled to benefits under Part A or enrolled in Part B may obtain drug coverage. The Centers for
Medicare & Medicaid Services (CMS), which administers Medicare, contracts with private
prescription drug plans (Part D sponsors), which must apply to CMS to participate in the Part D
program, to offer prescription drug benefits to eligible individuals.

Centers for Medicare & Medicaid Services Oversight Responsibilities

CMS is responsible for safeguarding the Part D program from fraud, waste and abuse (FWA),
including ensuring Part D sponsors’ compliance with applicable requirements. CMS developed
chapter 9 of the Prescription Drug Benefit Manual, which provides guidance to Part D sponsors
for developing a program to control FWA.

CMS contracts with Medicare Drug Integrity Contractors (MEDIC) to perform many Part D
oversight activities. The MEDICs’ responsibilities include analyzing claims and other data,
investigating complaints, and reviewing the FWA components of Part D sponsors’ compliance
plans.

Part D Sponsors’ Responsibilities

The MMA includes a requirement that all Part D sponsors have a program to control FWA.
Accordingly, CMS set forth regulations at 42 CFR § 423.504(b)(4)(vi) that require Part D
sponsors to have a compliance plan. The compliance plan, which must be approved by CMS,
articulates policies, processes, and procedures for Part D sponsors to detect, correct, and prevent
FWA. Implementing a compliance plan includes conducting the activities described in the plan
and developing comprehensive written procedures for activities referenced in the plan. The
sponsors’ compliance plans must contain the required components as set forth in these
regulations; chapter 9 of CMS’s Prescription Drug Benefit Manual contains further
interpretation of the required components.

Sterling Life Insurance Company

Sterling Life Insurance Company (Sterling) is headquartered in Bellingham, Washington, and is
a subsidiary of Munich-American Holding Corporation. Sterling became a Part D sponsor in
2006 and, during the period of this review, offered Part D drug plans in all 50 States and the
District of Columbia. Sterling contracts with Express Scripts, Inc. (ESI), to provide pharmacy
benefits management services including pharmacy auditing, claims processing, and formulary
management.

                                                 1
Previous Office of Inspector General Work

The U.S. Department of Health & Human Services, Office of Inspector General, Office of
Evaluation and Inspections (OEI), issued two reports regarding Part D sponsors’ compliance
plans and a third report that dealt more generally with the reporting of potential FWA on the
parts of Part D sponsors. In the first report, entitled Prescription Drug Plan Sponsors’
Compliance Plans (OEI-03-06-00100) and issued in December 2006, OEI found that most
Part D sponsors’ compliance plans did not address all of the CMS requirements or
recommendations as to the content of those plans. The second report, issued in October 2008
and entitled Oversight of Prescription Drug Plan Sponsors’ Compliance Plans
(OEI-03-08-00230), found that in calendar year 2007 CMS conducted only one audit of a Part D
sponsor’s compliance plan.

In addition, OEI issued a report in October 2008 entitled Medicare Drug Plan Sponsors’
Identification of Potential Fraud and Abuse (OEI-03-07-00380). OEI found that 24 of the 86
Part D sponsors reviewed did not identify any potential FWA, and that inappropriate billing was
the most prevalent type of potential FWA that Part D sponsors identified in their reports of
potential FWA.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether Sterling had adequate internal controls in
place to detect, correct and prevent FWA in the Part D program during the period of
July 1, 2007, through June 30, 2009.

Scope

We reviewed Sterling’s internal controls that pertained to the detection, correction and
prevention of FWA in the Part D program for the period of July 1, 2007, through June 30, 2009.
We limited our review to Sterling’s prescription drug plan, CMS contract number S4802.
We did not test the claims processing edits that were in place to ensure that unallowable claims
are properly rejected.

We conducted fieldwork at the corporate offices of Sterling in Bellingham, Washington, and of
ESI in St. Louis, Missouri, and in our field office in Des Moines, Iowa, from September 2009
through March 2010.

Methodology

To accomplish our objective, we:

  •     reviewed applicable Federal regulations and CMS guidance;




                                                2
    •   held discussions with CMS officials and MEDIC staff members to gain an understanding
        of the oversight activities pertaining to Part D sponsors’ FWA programs;

    •   interviewed Sterling and ESI officials to gain an understanding of both Sterling’s FWA
        program and its internal controls to detect, correct and prevent FWA in the Part D
        program;

    •   reviewed Sterling’s Compliance Plan as well as policies and procedures related to the
        internal controls to detect, correct and prevent FWA in the Part D program;

    •   reviewed Sterling’s potential FWA cases for the period of July 1, 2007, through
        June 30, 2009;

    •   reviewed Sterling’s contracts and requirements for its contracted entities that were
        responsible for the administration and delivery of the Part D program; and

    •   reviewed Sterling’s compliance training documentation for 2007 and 2008. 1

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Sterling had several internal control weaknesses that compromised its ability to detect, correct
and prevent FWA in the Part D program during the period of July 1, 2007, through
June 30, 2009. Specifically:

    •   Sterling did not ensure that its employees completed compliance training pursuant to
        Federal regulations.

    •   Sterling did not require its contracted entities to provide compliance training to their
        employees as required by Federal regulations.

    •   Sterling did not perform monitoring activities of its contracted entities as required by
        Federal regulations.

    •   Sterling did not have a compliance committee pursuant to Federal regulations.




1
 Sterling compiled its training documentation by calendar year. Therefore, the training documentation reviewed did
not include information on training conducted in calendar year 2009.

                                                        3
Sterling’s Compliance Plan and its policies and procedures, if properly implemented, would
enable Sterling to detect, correct and prevent FWA pursuant to Federal requirements. However,
Sterling did not follow the provisions of its Compliance Plan and the policies and procedures
pertaining to the compliance training of its employees and contracted entities, the monitoring of
its contracted entities, and the designation of a compliance committee. As a result of these
internal control weaknesses, Sterling compromised its ability to detect, correct and prevent FWA
in the Part D program, and increased the risk that improper payments may have occurred.

COMPLIANCE TRAINING FOR EMPLOYEES

Federal regulations at 42 CFR § 423.504(b)(4)(vi)(C) require that a Part D sponsor’s compliance
plan address effective training and education for the Part D sponsor’s employees and its
contracted entities. In addition, CMS guidance in the Prescription Drug Benefit Manual, chapter
9, § 50.2.3.1, states that Part D sponsors “… should maintain records of the time, attendance,
topic and results of training.”

Sterling’s Compliance Plan requires that its employees complete compliance training and states,
in Section IV (Training and Education), that “[e]ach member of Sterling’s Workforce must
receive initial and annual compliance training. Failure to comply with training requirements will
result in disciplinary action, including possible termination.” In addition, the Compliance Plan
states that “[t]he Compliance Officer and appropriate Business Unit managers or supervisors, as
applicable, shall document training of Sterling’s Workforce and provide the documentation to
the Compliance Officer. The documentation will include the time and date … as well as listing
Workforce members who attended (or otherwise received) the training.”

Sterling did not follow the provisions of its Compliance Plan to ensure that its employees
completed compliance training as required by Federal regulations. Notwithstanding the
documentation requirements specified in its Compliance Plan, Sterling could not support with
documentation that all of its employees completed compliance training. Sterling did not have
proper procedures in place to ensure that each employee attended compliance training. Sterling
retained sign-in sheets as documentation of the required training, but did not ensure that each of
its employees attended the training. Thus, there is no assurance that all of Sterling’s employees
received appropriate compliance training.

COMPLIANCE TRAINING FOR CONTRACTED ENTITIES

Federal regulations at 42 CFR § 423.504(b)(4)(vi)(C) require that a Part D sponsor’s compliance
plan address effective training and education for the Part D sponsor’s employees and its
contracted entities. In addition, CMS guidance in the Prescription Drug Benefit Manual, chapter
9, § 50.2.3.2, states that (a) Part D sponsors should require that the contracted entities provide
their own compliance training or, (b) where there are sufficient organizational similarities, Part D
sponsors may choose to make their training programs available to the contracted entities.

In addition, Sterling’s Compliance Plan requires, in Section IV (Training and Education), that its
contracts include a provision that requires the contracted entities to provide compliance training
to their employees.

                                                 4
Sterling did not follow the provisions of its Compliance Plan to ensure that the employees of its
contracted entities received compliance training as required by Federal regulations. Specifically,
Sterling did not contractually require its contracted entities to provide compliance training to
their employees, as required by the Compliance Plan. Thus, there is no assurance that Sterling’s
contracted entities provided the required compliance training to their employees.

MONITORING OF CONTRACTED ENTITIES

Federal regulations at 42 CFR § 423.504(b)(4)(vi)(F) require that a Part D sponsor’s compliance
plan include procedures for effective internal auditing and monitoring. In addition, CMS
guidance in the Prescription Drug Benefit Manual, chapter 9, § 40.1, emphasizes that Part D
sponsors are ultimately responsible for ensuring that Federal requirements are met for any
compliance functions delegated to contracted entities. In order to ensure that contracted entities
are in compliance with Federal requirements, CMS guidance in Chapter 9, § 50.2.6.1.3,
recommends that Part D sponsors have a plan in place to monitor and audit contracted entities’
responsibilities and activities with respect to the administration and delivery of the Part D
program.

In keeping with CMS guidance, Sterling’s Compliance Plan addresses, in Section VII
(Monitoring and Auditing), the monitoring of Sterling’s contracted entities. In addition,
Sterling’s Vendor Oversight Policy identifies specific monitoring activities and requires that a
compliance monitoring plan be in place for its contracted entities. Section IV of Sterling’s
Vendor Oversight Policy identifies specific areas to be addressed in the compliance monitoring
plan, to include Federal requirements and contractual requirements.

Sterling did not follow the provisions of its Compliance Plan and policies and procedures
relating to the monitoring of its contracted entities pursuant to Federal regulations. Specifically,
Sterling did not have compliance monitoring plans in place to ensure that its contracted entities
were in compliance with Federal and contractual requirements. Moreover, Sterling did not
perform monitoring activities, as outlined in its Compliance Plan and policies and procedures, to
ensure the ongoing compliance of its contracted entities. Thus, there is no assurance that
Sterling’s contracted entities were in compliance with Federal and contractual requirements.

FORMATION OF A COMPLIANCE COMMITTEE

Federal regulations at 42 CFR § 423.504(b)(4)(vi)(B) require that a Part D sponsor’s compliance
plan include the designation of a compliance officer and a compliance committee, both of whom
are accountable to senior management. In addition, Sterling’s Compliance Plan and policies and
procedures require that Sterling establish a compliance committee. Sterling’s Compliance Plan
states, in Section II (Compliance Officer and Compliance Committee), that “Sterling will
establish a Compliance Committee to advise the Compliance Officer and assist the Compliance
Officer in implementation of this Compliance Plan…. The Compliance Committee will be
accountable to senior management….”

Sterling did not follow the provisions of its Compliance Plan and policies and procedures
relating to the designation of a compliance committee pursuant to Federal regulations.

                                                 5
Specifically, Sterling did not establish a formal compliance committee until May 2009.
According to Sterling officials, an informal ad hoc committee served in place of a formal
compliance committee. The absence of a formally designated compliance committee may have
hindered Sterling’s ability to effectively implement its Compliance Plan and communicate any
potential risks associated with the Part D program to senior management.

RECOMMENDATIONS

We recommend that Sterling strengthen internal controls by following the provisions of its
Compliance Plan by:

  •   establishing policies and procedures to maintain documentation to support that its
      employees completed compliance training pursuant to Federal regulations,

  •   revising its contracts to require that contracted entities provide compliance training to their
      employees as required by Federal regulations,

  •   adhering to its policies and procedures to monitor the activities of its contracted entities as
      required by Federal regulations, and

  •   adhering to its policies and procedures to establish a formal compliance committee
      pursuant to Federal regulations.

STERLING LIFE INSURANCE COMPANY COMMENTS

In written comments on our draft report, Sterling concurred with our recommendations and
described corrective actions that it had implemented or planned to implement.

Sterling’s comments are included in their entirety as the Appendix.




                                                  6
APPENDIX
                                                                                                 Page 1 of 4


APPENDIX: STERLING LIFE INSURANCE COMPANY COMMENTS 





                   STERLING Life Insurance Company
                                    Real People. Wise Choices.'




   Sterling Life Insurance Company
   2219 Rimland Drive
   Bellingham, WA 98226


   July 28, 2010

   Patrick J. Cogley
   Regional Inspector General for Audit Services
   Region VII
   601 East lih Street
   Room 0429
   Kansas City, Missouri 64106

   RE: Report Number A-07-09-03136



   Dear Mr. Cogley:

   Enclosed please find Sterling Life Insurance Company's (Sterling) response to the U.S.
   Departrnent of Health and Hurnan Services, Oftice of Inspector General (OIG) draft
   report entitled Review a/Sterling Life Insurance Company's Internal Controls to Guard
   Against Fralld. Waste and Abuse /orthe Medicare Pari D P'·ogram.

   If you have any questions or cOIrunents please do not hesitate to call me at 360-392·9098,
   or contact Mauhew Cooper, Compliance Analyst, at 360·392·9357, or through email at
   !D~nhew.~[@~t!:rlingplanS.CQm.

   Sincerely, 




   Craig A.ndway 

   Vice PI~~ident. Compliance and Regulatory All~'\ir~; 





   Anachment 





                  i!l'-l Riml;1l1d UII\'!' • ro Bnx 5HK I>HI!llqh,lITl. INA 98227·):I't8 

             loll free. I 88R·8~lS·8~·16 • FtlX 1"(J (,47 8td2 • IV"'.V <lr·rlmqpla",,(nr,·, 

                                                                                           Page 2of4




Sterling Life Insurance Company's response to the U.S. Department of Health and
Human Services, Ofiice of Inspector General (010) draft report entitled Review of
Sterling Life Insurance Company's Internal Controls to Guard Against Fraud. Waste and
Abuse for the Medicare Part D Program (Report Number A-07-09-03136)


Finding #1:

Sterling had several internal control weaknesses that compromised its ability to detect,
correct and prevent FWA in the Part D program during the period of July I, 2007,
through June 30, 2009.

Sterling did not ensure that its employees completed compliance training pursuant to
Federal regulations.

Recommendation:

We recommend that Sterling strengthen internal controls by following the provisions of
its Compliance plan by establishing policies and procedures to maintain documentation to
support that its employees completed compliance training pursuant to Federal
regulations.

Response:

Sterling concurs with the recommendation.        The Sterling Compliance Plan was
implemented in January 2009 and revised in November 2009. The Compliance Plan
contains policy and procedures outlining the training and education of Sterling'S
workforce. Elements of this training include, but are not limited to, an overview of the
Part C and Part D programs; fraud, waste and abuse controls; privacy and security; and
compliance training specialized for individual business units. The methods used to
administer training were under development during the review period but have since been
formalized. Initial and annual compliance training is administered by the Compliance
Department and its effectiveness is measured through testing. Calendar year (CY) 2009
compliance training was completed in April 2010 and CY 2010 training will be
conducted in September 2010, thence on an annual basis. The Compliance Department
maintains employee records related to compliance training.



Finding #2:

Sterling had several internal control weaknesses that compromised its ability to detect,
correct and prevent FWA in the Part D program during the period of July I, 2007,
through June 30, 2009.
                                                                                                 Page 3 of4




Sterling did not require its contracted entities to provide compliance training to their
employees as required by Federal regulations.

Recommendation:

We recommend that Sterling strengthen intemal controls by following the provisions of
its Compliance plan by revising its contracts to require that contracted entities provide
compliance training to their employees as required by Federal regulations.

Response:

Sterling concurs with the recommendation. Sterling maintains oversight of contracted
entities through the appointment of Vendor Relationship Managers who coordinate key
functions and contract requirements between the parties. Upon request, Sterling's
pharmacy benefit managers (PBMs) were able to provide documentary evidence of
compliance training provided to their employees. The contract update process with
Sterling's PBMs has been initiated and contracts will be amended to require contracted
entities to provide compliance training to their employees.



Finding #3:

Sterling had several intemal control weaknesses that compromised its ability to detect,
correct and prevent FWA in the Part D program during the period of July J, 2007,
through June 30, 2009.

Sterling did not perform monitoring activities of its contracted entities as required by
Federal regulations.

Recommendation:

We recommend that Sterling strengthen intemal controls by following the provisions of
its Compliance plan by adhering to its policies and procedures to monitor the activities of
its contracted entities as required by Federal regulations.

Response:

Sterling agrees that it can improve its oversight of contracted entities. Sterling performed
audits of its PBMs dming the review period. Auditing of Am Wins began on April 2,
2009, and was completed on June 10, 2009. ESI was audited in October 2008 and again,
beginning in June 2009. This audit was finalized in September 2009. Auditing of both
contracted entities addressed methods of controlling fraud, waste and abuse.

In an effort to further strenbrthen its oversight of contracted entities, Sterling implemented
a program of vendor oversight in June 2009 and appointed Vendor Relationship


2
                                                                                           Page 4 of 4




Managers tasked with the responsibility of overseeing and coordinating the key functions
and contract requirements of Sterling's contracted entities. The oversight of Sterling's
Part D PBMs was augmented with monitoring grids, which outline contractual and
regulatory requirements and the methods used to meet them. The grids are used to
identify potential gaps in meeting requirements before they occur. Vendor Relationship
Managers report to Sterling senior management and the Compliance Oftker.

Sterling will continue to utilize Vendor Relationship Managers and targeted audits to
oversee and monitor the activities of its contracted entities.



Finding #4:

Sterling had several internal control weaknesses that compromised its ability to detect,
correct and prevent FWA in the Part D program during the period of July I, 2007,
through June 30, 2009.

Sterling did not have a compliance committee pursuant to Federal regulations.

Recommendation:

We recommend that Sterling strengthen internal controls by following the provisions of
its Compliance plan by adhering to its policies and procedures to establish a fonmal
compliance committee pursuant to Federal regulations.

Response:

Sterling concurs with the recommendation and had modified its policies before the end of
the period under review. Prior to October 2008, Sterling's Compliance Officer reported
compliance matters on a quarterly basis to the Board of Directors, which is responsible
for compliance oversight. The Compliance Oftice attended quarterly Board meetings and
provided an oral report of compliance activities and oversight for the previous quarter,
accompanied by a detailed written report. Since October 2008, Sterling's Compliance
Officer submits a quarterly report to the Board of Directors Audit and Compliance
Committee.

Sterling reorganized its management level Compliance Committee in April 2009 and held
the first meeting of the reorganized committee in May 2009. Quarterly meetings have
been held since that time. Duties of the Committee include but are not limited to:
establishing standards of conduct and policies and procedures; perfonning a compliance
risk assessment; and developing an annual internal audit plan.




3
